Evaluation and Inspection Report
Review of the INS's National Customer Service Center
Telephone Information Service
Report No.  I-2002-001
December 2001
TABLE OF CONTENTS
INTRODUCTION
Background
Scope and Methodology
RESULTS OF THE INSPECTION
Accuracy of Answers Provided
Recommendation
Wait Times
Courtesy and Professionalism
CONCLUSION
APPENDIX I - SAMPLE CALL SHEET
APPENDIX II - QUESTIONS ASKED
APPENDIX III - QUESTIONS ANSWERED INCORRECTLY OR REFERRED
APPENDIX IV:  INS MANAGEMENT RESPONSE
APPENDIX V:  OFFICE OF THE INSPECTOR GENERAL'S      ANALYSIS OF INS MANAGEMENT RESPONSE